HHS/OIG, Audit - "Review of Kansass Medicaid Payments for the Child
Welfare Services Program for the Period July 1, 2000, Through June 30, 2003,"
(A-07-06-03079)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Kansass Medicaid Payments for the Child Welfare Services Program for the
Period July 1, 2000, Through June 30, 2003," (A-07-06-03079)
April 14, 2008
Complete
Text of Report is available in PDF format (435 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State did not assure that its $61,371,523
($36,943,979 Federal share) Medicaid claim for the Child Welfare Services
program was equal to or less than the limit specified in the State plan.
Without such assurancesupported with auditable documentationwe were unable to
express an opinion on the reasonableness of the claim.  The States
inadequate policies and procedures were the causes of its inability to provide
such assurance.  The State had contracted
with providers for child welfare services and paid providers on a per child
basis.  We conducted this audit at CMS's request.
We recommended that the State (1) work with CMS to determine the allowability of the $61,371,523 ($36,943,979 Federal share) for the audit period
of State FYs 2001 through 2003 and all subsequent periods and (2) strengthen
policies and procedures to ensure that State plan requirements are followed in
submitting future child welfare services claims.  The State agency concurred
with our first recommendation and did not directly address our second
recommendation.